<html>
<title> - GIVING CHILDREN A CHANCE TO LEARN: THE D.C. STUDENT OPPORTUNITY SCHOLARSHIP ACT</title>
<body><pre>[Senate Hearing 105-538]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-538


 
    GIVING CHILDREN A CHANCE TO LEARN: THE D.C. STUDENT OPPORTUNITY 
                            SCHOLARSHIP ACT

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 1998

                               __________

      Printed for the use of the Committee on Governmental Affairs



                               <snowflake>


                   U.S. GOVERNMENT PRINTING OFFICE
 49-000                   WASHINGTON : 1998
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                       Lynn L. Baker, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                     Michael Rubin, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1

                               WITNESSES
                          Tuesday, May 5, 1998

Virginia Walden, Washington, D.C.................................     3
Wesley Walker-Bey, Washington, D.C...............................     6

                     Alphabetical List of Witnesses

Walden, Virginia:
    Testimony....................................................     3
    Prepared statement...........................................     5
Walker-Bey, Wesley:
    Testimony....................................................     6



  GIVING CHILDREN A CHANCE TO LEARN: THE DISTRICT OF COLUMBIA STUDENT 
                      OPPORTUNITY SCHOLARSHIP ACT

                              ----------                              


                          TUESDAY, MAY 5, 1998

                                       U.S. Senate,
Oversight of Government Management, Restructuring, and the 
                         District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:40 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon Sam Brownback, 
Chairman of the Subcommittee, presiding.
    Present: Senator Brownback.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. I will go ahead and call the Committee 
meeting to order, and if our two witnesses would like to come 
up to the table, I have a brief opening statement and then we 
are going to have a good discussion about an important topic. I 
appreciate your willingness to join us today.
    I want to welcome everybody here, the hearing is going to 
be an informal session looking at the issue of D.C. vouchers. 
The President now has on his desk, or soon will have on his 
desk, a bill allowing certain students within the District of 
Columbia that qualify to have a voucher that they could take to 
any public or private school. This is if they qualify, if they 
are at 180 percent of poverty or below. This has passed both 
the House and the Senate, a majority in both bodies believing 
strongly that we need to do something to allow children some 
choice and some opportunities.
    We have held hearing after hearing, frankly, in this 
Committee meeting room about the failures of the D.C. public 
school system. We most recently had one in here where we were 
looking at the Stanford 9 test results, and in some high 
schools in the District of Columbia we have whole classes that 
nobody has scored at or above competency for that grade level 
on a nationwide basis. Everybody was below competency level, 
and it is just a crying shame that students didn't have the 
opportunities in the system.
    We see in test score results, as well, that when students 
start out in the District of Columbia public school system, 
they start out on about a national par, average with everybody 
else. And then the longer they are in the system, the worse 
they do. They just continue to decline. So it is not that you 
are starting off with a group of students that aren't capable 
of performing. They are very able to perform, and yet this 
system has failed them. That is why we want to see some 
alternatives choice to this system.
    I certainly give my best to the new superintendent, Mr. 
Ackerman, and wish her godspeed on getting the system changed, 
but I don't think we can wait around until the year 2000 and 
hope and pray that we get the changes we need. I think we need 
to be able to offer those to the students now.
    I found it interesting that the Washington Scholarship 
Program, which is a private-funded scholarship program for low-
income students--in their first application pool, they received 
7,500 applicants for 1,000 scholarships that were available. 
And so at least 6,500 students are going to be receiving 
rejection notices saying that they can't go to a school other 
than the public school system because they can't afford it and 
they can't get this scholarship.
    We are simply asking for $7 million in the budget, that the 
President approved, and allow students to do what he did with 
his daughter, Chelsea, which is to send them, if they want, to 
a private school.
    Something else I would note to the members on the panel and 
the people in the audience is that we have now surveyed every 
office in the Congress as far as Members of Congress, Members 
of the Senate, even delegates that don't have voting 
privileges, the President and the Vice President. And do you 
know how many Members we found sending their children to the 
District of Columbia public school system? Zero. Not a single 
one sends their children to the District of Columbia public 
schools.
    Now, what are they saying by this? And then the President 
would deny the opportunity to those who are less fortunate 
financially to send their children to better schools? 
Everybody, every parent, wants the best for their child, and 
then we are saying, or the President is saying that they can 
not. I hope he changes his mind and does sign this, providing 
to the children of D.C. the same thing that he provided to his 
child, a quality education and an opportunity and a choice that 
he had.
    I hope that he is going to be willing to let students in 
the District of Columbia do something similarly. The President 
will have this option.
    [The prepared statement of Senator Brownback follows:]

                PREPARED STATEMENT OF SENATOR BROWNBACK

    I wanted to call this brief hearing to solicit the views of the 
folks who will be directly impacted by the President's decision to sign 
or veto the bill we are discussing today. I especially want to welcome 
our D.C. parents who have agreed to be here with us in order to explain 
how school choice impacts the lives of their children.
    Last Thursday, the House passed the ``D.C. Student Opportunity 
Scholarship Act,'' which was passed in the Senate last year. The bill 
will be sent to the White House this week and I call on the President 
to sign this legislation. He must not allow any more D.C. children to 
fall victim to the poor state of D.C. public schools. The President 
must sign this legislation.
    As Chairman of the Subcommittee on Oversight of Government 
Management, Restructuring and the District of Columbia, one of my 
highest priorities is to ensure that the children of this city get the 
education they need and deserve. This Subcommittee's last hearing 
entitled ``Lessons Learned in the D.C. Public Schools'' did just that; 
it taught us just how grim the D.C. public schools scored on national 
standardized tests and how long it would take to mend the system that 
fails these children every day.
    At that hearing, the then Chief Executive Officer and 
Superintendent of the District of Columbia Public Schools, General 
Julius Becton, and his successor, Ms. Arlene Ackerman, testified that 
the school system would be back on track by the year 2000 and that by 
then the children of D.C. would be scoring on par with the rest of the 
Nation.
    I support the effort Ms. Ackerman is making and can appreciate all 
the hard work that lies ahead of her. I cannot, however, in good 
conscience sit back and allow our students to linger in broken schools 
while quality education is available at private and parochial schools, 
as well as, after school tutoring programs.
    In 2 years, a first grader will learn to read, write, add and 
subtract. In those same years, our high school students gain the skills 
and preparation they need for college or a job. Two years is too long 
to wait while students are left neglected in a system that admits it is 
not educating its students sufficiently.
    The statistics show that D.C. kindergarten and first grade students 
start out like other children across the country at median achievement 
levels; however, the statistics also show that those students are not 
likely to remain at those academic achievement levels. What kind of 
message is that sending our children? What kind of incentive is that to 
stay in school?
    While Ms. Ackerman works to reform the school system, we must reach 
out to those students who are presently enrolled. These children are 
cheated each year they spend in D.C. public schools and they need and 
deserve the opportunities that this bill will offer.
    We are here today with the hopes of providing the District's 
children the chance to learn with the ``D.C. Student Opportunity 
Scholarship Act.'' The bill will provide approximately $7 million, in 
addition to the District's Public Education budget, to be apportioned 
into 1,800 scholarships for low-income families in the city. The bill 
allows these low-income parents to choose between public and private 
schools in the Washington Metropolitan Area.
    This legislation would simply give children and their parents the 
ability to choose the quality education each child needs. Under this 
bill the child's educational needs are placed above the school system's 
need to improve. Again, I call on the President to give the children of 
D.C. a chance by signing this important legislation.

    Senator Brownback. I wanted to hear from a couple of people 
that are dealing with this in their own lives. Our panel today 
consists of two District of Columbia parents who are very 
involved with their children's education. First, we will have 
Virginia Walden, who is a single mother of three. Her youngest 
son attends a local private high school, with some help from 
neighbors, friends, and people in the neighborhood.
    Next, we will hear from Wesley Walker-Bey, who is a single 
father of four and has children currently attending D.C. public 
schools. I look forward to hearing the testimony of both of 
you, and to also try to glean from you something that you think 
we ought to be doing. We will have an informal setting, but I 
do look forward to your testimony and some question afterwards.
    First, Ms. Walden, thank you for joining us.

         TESTIMONY OF VIRGINIA WALDEN, WASHINGTON, DC.

    Ms. Walden. Thank you. It is an honor to appear before you 
to talk about school choice in the District. Having raised 3 
children in D.C. over the last 20 years, I have been involved 
continually with the educational system. I have watched in 
horror as D.C. public schools deteriorated and stopped meeting 
the needs of its students, and I breathed a sigh of relief when 
two of my kids finished D.C. public high schools because I saw 
that it was getting progressively worse.
    But I was still confident that I could get my third child 
through a D.C. public high school with my encouragement and my 
direction.
    Senator Brownback. Ms. Walden, pull that mike a little 
closer to you, if you would, or bend it down some, too. It is 
pretty directional. Thank you.
    Ms. Walden. But I really wasn't prepared for the difficult 
times that were ahead for me and my youngest child in the 
educational system, or in D.C. After years of trying to be an 
involved parent, I was forced to reexamine traditional public 
education in D.C. as I watched my youngest child become totally 
disinterested in school. He became extremely disruptive and 
hostile about attending school. He was suspended a number of 
times, and I spent many hours at the schools trying to convince 
them that my child was very, very bright and not to suspend him 
again. Oftentimes, I was unable to keep that suspension from 
going through.
    It was a constant struggle getting him to go to school. He 
talked to me about it many times, but oftentimes in anger, and 
if I really pushed him to do schoolwork at home or try to talk 
to him about it, a lot of times he would just leave and stay 
away for hours and hours or wouldn't talk to me and it was a 
real struggle. I just found myself in a position where I 
couldn't control him anymore and this was very, very scary for 
me.
    But last summer, after he had spent 1 year in a District 
public high school and had such an awful time, I came home from 
work 1 day and was met by the police, and that was when 
everything really kind of came to a head. I knew that I had to 
make some decisions. I had to help this child because what I 
saw was really, really scary and disturbing.
    There was a neighbor, a young man in the neighborhood who 
oftentimes I talked to him. He counseled some of the single 
mothers in the neighborhood about boys, and we talked about it 
and I cried on his shoulder and expressed to him what despair I 
was in and how I didn't have any choices. Private school was 
just absolutely out of the question for me. We were struggling 
to make it from day to day, and I have a fairly good job, but 
it was very difficult.
    A couple of weeks later, this same person came back to me 
and said, ``We're going to help you.'' He had gathered a group 
of young men together and they made a commitment to help my son 
because they saw a lot of potential in him. So in September, 
William, my youngest son, entered a D.C. private school, and 
the changes in him have been incredible. I mean, he has just 
blossomed.
    He, for the first time in his educational life, is enjoying 
school. He is succeeding academically. He is succeeding 
socially, which was an issue. He was getting in trouble so 
much, it stopped him from being able to participate in the 
social part of being a teenager. We talk for hours about school 
and we discuss what is going on in his classroom. Usually, when 
I get home, he is finished with homework, which is remarkable 
to me, and we can sit and look at the homework and discuss it. 
He has discovered he is a really good athlete and is running 
track, has earned a space and is really very good on the track 
team at his school.
    Our relationship has just changed in incredible ways. I 
mean, he is my child again. This is a child that I am just 
absolutely enjoying. The change in him just made that much of a 
difference and it has been really dramatic in our particular 
case, but it has been wonderful. But I couldn't have done this 
without the help. I mean, there was no way. I would sit down 
and I would try to think about ways to pay for him to go to a 
private school and it just was not feasible and I couldn't have 
done it without some assistance.
    One of the things I think about most often and one of the 
things I worry about--and I do work with low-income mothers 
because it is my way of giving back to the community, and one 
of things I think about as I talk to them is that they have so 
few choices. I mean, I was really lucky that I was able to get 
a neighbor to help, but if that neighbor hadn't helped, maybe I 
could have thought of something else. Maybe I could have sent 
him back down South to my family.
    But these parents have no choices. They are just forced to 
keep their children in schools that are just horrible, and they 
crowd them in. They talk to me about it and I think that is 
what we have to do. That is why I am here today. I mean, we 
have to make sure that we are providing some kind of way to 
enable parents that have no choice to provide a way to make 
sure that their children are armed with the education that will 
get them into the future.
    Thank you.
    Senator Brownback. I look forward to having further 
discussion with you. Congratulations.
    Ms. Walden. Thank you.
    Senator Brownback. I can just see it in your eyes, the joy 
and the pleasure after the struggle that you have been through. 
I look forward to some questions and some interaction.
    [The prepared statement of Ms. Walden follows:]

                    PREPARED STATEMENT OF MS. WALDEN

    Mr. Chairman and Members of the Subcommittee: It is an honor to 
appear before you to discuss school choice in the District of Columbia 
from a parent's perspective.
    Having raised three children in D.C. over the last 20 years, I have 
been involved continually with the educational system. I watched in 
horror as District public schools deteriorated and stopped meeting the 
needs of its students. With my older children I breathed a sigh of 
relief when they completed their studies in District high schools--one 
going on to college. I was glad, that with the problems getting 
progressively worse, at least two of my children were finished. But I 
was still confident that I would be able to encourage and direct my 
youngest child, as I had the others, and he too, would finish a D.C. 
public high school.
    I was not prepared for the difficult times ahead for me and my 
youngest child in the educational system. After years of trying to be 
an involved parent who made a difference, I was forced to reexamine 
traditional public education in D.C. as I watched my son become totally 
disinterested in school. He became extremely disruptive and hostile 
about attending school. He was suspended many times and I spent 
countless hours at his school trying to convince teachers and 
administrators that my child was really very bright and begging them 
not to suspend him again. The older he got the more horrible the 
situation became. It became a constant struggle getting him to do any 
kind of school work at home and if I pushed too hard he would get very 
angry, often leaving the house for hours. It seemed to be a desperate 
situation. I could not control him any more and to be perfectly honest 
I was scared to death. But everything came to a head when he was 
brought home by the police 1 day last year. I knew that something had 
to be done to help this child. But I didn't know what options I had. As 
a single mother, I knew that private schools were out of the question. 
I could not afford to pay tuition. I discussed my frustrations with a 
neighbor who had, at various times, helped me with my son. We both 
agreed that a private school with a different environment would be the 
answer for William. He encouraged me to hold on and have faith. Two 
weeks later this neighbor returned with a commitment from several men 
who had grown up in our community, to pay my son's tuition as their way 
of giving back to the community. William entered a private high school 
in September, 1997.
    The changes in him have been extraordinary. He is, for the first 
time in his educational experience, enjoying school and succeeding 
academically and socially. It is so wonderful for me to see him having 
such a great time in school. We talk about his school work every day, 
with him often starting the discussion. He is usually finished with his 
homework by the time I arrive home in the evening. He has discovered 
that he is a good athlete and has earned a place on the school track 
team. Our relationship has changed in ways that did not seem possible a 
year ago. I no longer see anger and frustration in his eyes and the 
friends he has chosen are young people that have wonderful plans for 
the future and so does William. For us, the transition from public to 
private school has been dramatic and exciting.
    Of course, I could not have done this without some financial 
assistance. I shudder to think what would have happened to my child if 
he had continued in the direction he was going. And I feel despair for 
the mothers who find themselves in the position I was in--with no 
choices. I was lucky to have a neighbor who saw potential in my son and 
could help my family have a happy ending. But so many families won't 
have that chance. Everything must be done now to make sure that we are 
providing ways that will allow parents to make the choices that will 
ensure that their children will be equipped with the best education 
possible.

    Senator Brownback. Mr. Walker-Bey, thank you very much for 
joining us today and we look forward to hearing your testimony.

         TESTIMONY OF WESLEY WALKER-BEY, WASHINGTON, DC

    Mr. Walker-Bey. Yes, sir. Good morning, Senator, ladies and 
gentlemen. I am Wesley Walker-Bey, as the record reflects. 
First of all, I would like to start off by giving a little 
background information on myself.
    At one time, I would have considered myself a private 
person and a whole lot of other things I could have read into 
it, but today I have no problem sharing some of my most darkest 
secrets. I have been from a treatment program, which is a drug 
treatment program, for approximately 9 months. When I was 
released--and let me clarify the type of drugs that I was using 
at the time. I was on heroin, as well as alcohol, and that was 
a devastating experience for me because I had two children that 
I had to support and they are relatively young, and I was not 
there to support those children.
    But, anyway, approximately 9 months ago I was released from 
treatment and I found myself in a very, very, very confusing, 
uncomfortable situation. By that, I mean I had to take care of 
my children. I had to start doing things that any responsible 
parent would do. I have a daughter. She is 12 years old and she 
is developmentally delayed and she is in special education. I 
have a son. He is 8 years--well, one of my sons, this 
particular one, is 8 years old and he has a problem and I 
believe the psychiatrist referred to it as hyperactive, etc. So 
both of those two children are in special education.
    When I came home, my daughter, she could not read nor 
write. She didn't even know her alphabet. I made it a point to 
communicate with her teacher, at least once a week, because I 
wanted the teacher to try and devote more time with her and to 
make her personal assessment and to try to come up, with me, 
some type of way that we could help her without having to take 
her to the psychiatrist or a psychologist, whatever.
    I must say that her teacher appeared to have a personal 
involvement with my child. However, in spite of all of that, 
she still could not read. For the past 4 months, I have worked 
closely with my daughter and I am happy to report this morning 
that, with my help and assistance, my daughter, she now knows 
her ABC's. She has begun to read. She is just progressing very 
much.
    My son, he appeared to have a behavioral problem, 
disruptive in school. These are some of the reports that the 
teachers submitted to me and we discussed them whenever I went 
to his school. And unfortunately--and I wasn't looking for the 
teacher or teachers to do any miracles, but I did expect them, 
and I still expect them to do their share. Unfortunately, I did 
not see any improvement in his behavior until I got personally 
involved with that process.
    I have observed that his behavior has changed. Fortunately, 
I knew a person; he is a professional man, he is a therapist, 
and he has been working with me without charging me anything 
because--and let me add this--I work 2 days a week as a 
counselor in a group home and I don't make but $6 an hour and 
it is utterly impossible for me, as much as I would like to, to 
send my children to a private school.
    This counselor, or this therapist, he works with me and he 
has professionally reported that my son has begun to improve 
behaviorally as well as in other areas. And I am saying that to 
say this. I think that it was--well, let me say this first. I 
think the best thing that could have happened to me was when I 
was invited to testify or say something before this hearing, 
and when I speak I am not speaking just for myself. I think 
that the Senators who are opposing this particular voucher or 
this bill, measure, or whatever it is that you call it--what 
they need to do is get with you, Senator, and just walk around 
some of those schools and just look; go to some of those 
neighborhoods and just watch the children going to school and 
coming from schools. And it is no secret because it is just 
conventional and public information and knowledge when you look 
in the paper.
    I don't even think teachers have time to concentrate on 
their classes--the killings. And I think the sister here 
mentioned something about the detector machine that they have 
in school. This is a disgrace. I don't think that you would 
have to walk into a private school--that would be an affront, I 
think, to any parents in here to walk into a school and have to 
go through a detector, a metal detector, that type of thing. 
And, my brief experience incarcerated at a drug program--
whenever I walk into a school and I see that, it takes me back 
to being in an institution. That is a retardation for a 
pupil's, a person's education process. I mean, it is almost 
unheard of.
    Now, like myself, there are so many parents who would love 
to send their children to a private school because, in my 
personal opinion--and I know that I am being objective--it is 
almost a waste of time. Personally, I don't understand why the 
Senators, Congressmen, and Representatives are not supporting 
your cause, because I know they must read the newspapers; they 
must hear about the killings in schools.
    How, in good conscience, could a human being--it doesn't 
have to be a Senator, Congressman, or Representative--how could 
an individual, in good conscience, not support this measure or 
this bill, this voucher? I don't understand it.
    I feel good that I have been instrumental in helping my son 
and my daughter make some educational progress, and I feel bad 
that the schools have not been able to do the same thing. I 
know that I have a responsibility as a parent, and by the same 
token I understand that our teachers have a responsibility and 
I don't think that that responsibility is being carried out, 
for whatever reasons.
    But, Senator, it all boils down to poor persons like myself 
and others have no other choice. And what is going to happen 
is, because of the situation existing in those schools, what 
you are going to turn out is a bunch of little hoodlums.
    Senator Brownback. A bunch of what?
    Mr. Walker-Bey. Little hoodlums, because this is all they 
see in most cases. Now, there are some exceptions, but 
unfortunately very few in terms of what is happening in our 
public schools. So these children, they see these things. I 
mean, the situation has got so bad that I think they are 
putting signs around in different neighborhoods saying ``no-
drug area.'' I mean, that was unheard of in my time, and only 
recently. I mean, it is just that bad and it is obvious.
    The penalties for selling drugs around schools have 
increased because that is the reality of the situation. Why? It 
shouldn't have to be that way, but in spite of all of that, we 
have to send our children to schools that are ravaged by those 
types of dismal situations, and it is pitiful.
    Again, I want to say that with all that is happening in our 
public schools--and I want to put emphasis on public schools--
instead of turning out scholastic individuals, more than likely 
over half of them--and I have not researched on this; I don't 
need it because I see it--are going to turn out potential high-
at-risk criminals.
    It shouldn't be a whole lot to that, Senator, in terms of 
having to talk about it at this hearing. Washington knows it, 
Maryland knows it, and all of the United States knows about the 
public schools, and not just here in Washington, but it is all 
over. So I think that like the madame here and others that she 
is representing, as well as myself, what needs to be done is to 
just take down all of the public schools and just make all of 
the schools private so those individuals can get a realistic, 
substantial----
    Senator Brownback. You need to pull that microphone up to 
you, Mr. Bey.
    Mr. Walker-Bey. So I don't have any paper; I don't need it. 
Like I said earlier, I live in the neighborhood, from the hood. 
You have heard the expression ``the hood.'' And I am around 
those schools. I visit my daughter's and son's schools and I am 
aware of what is happening, and it is not just happening on 
Mondays and then skips and not happen to Saturday; it is every 
day. It is disgusting, it is miserable, and it is 
counterproductive to the whole learning process.
    I don't know anything else that I could say and I don't 
want to sound redundant, repeat myself, but I am just trying to 
give it to you, Senator, as we would say in the hood, in the 
raw.
    Thank you.
    Senator Brownback. Well, thank you very much, Mr. Walker-
Bey, for giving it just that way. We have sent this scholarship 
bill to the President and I would like to send him a message, 
just very clear, and as you say, very clear and blunt and in 
the raw. A number of students in the District of Columbia need 
this option. A number of parents in the District of Columbia 
desire this option passionately for their children, just as the 
two of you do.
    I noted in the Washington Post article, April 30, that 
there were a number of D.C. parents that applied for this 
private scholarship program that I talked about earlier, and 
listen to this. There was a computerized lottery; it was held 
Monday. Out of the 7,500 that applied, 1,000 were going to get 
these private scholarships. The scholarships weren't going to 
pay for the whole cost of education, they were only going to 
pay for between 30 and 60 percent of private school tuition, so 
the parents still had to come up with the majority in many 
cases, not in all cases, of that funding.
    Listen to what this one woman said, Karen Leach. She is a 
single mother who works at night as a security guard and won 
one of the scholarships. She just said this, ``I prayed every 
day, I just prayed every day. I just want my kids to have the 
best that I can get for them.'' That is what every parent wants 
for their child. That is why every Member of Congress does not 
send their children to the D.C. public schools, why the 
President doesn't, why the Vice President doesn't, because they 
want the best for their children.
    And yet some are in a financial category where they just 
cannot do it, and we are asking the President--all we are 
talking about is $7 million here. We are not raiding the public 
schools. If you would get the public schools up to grade, then 
people wouldn't be pulling their children out of public 
schools. We are just asking the President, let these people go, 
let them have a choice that you have, that every Member of 
Congress has. But, unfortunately, the two witnesses here 
represent so many other parents in the District that, because 
of financial difficulties, don't have this option, and you 
should have this option.
    And I think it will help the D.C. public schools. My own 
personal opinion is competition has never hurt anybody. It 
makes you stronger, it makes you better, and yet we have a 
public education monopoly in the District of Columbia that 
doesn't provide these sorts of options and doesn't have to 
worry about competition. It has got a captive marketplace in 
place.
    Let me ask a couple of questions, if I could. First, Ms. 
Walden, you say you basically had somebody in the neighborhood 
come forward, see potential in your son and say, ``I will pull 
the money together to do this,'' is that correct?
    Ms. Walden. That is absolutely correct, a young man who has 
worked in the community who is kind of the adviser for our 
kids. There are a lot of single parents, single mothers 
particularly, in our neighborhood, and he has always been 
around. He grew up in the neighborhood and he just worked with 
the kids. My son, he really thought was a nice kid. Even though 
he was giving me a fit, this young man saw the potential and 
got another group of young men who had also grown up in the 
community to invest and they have paid his tuition this year.
    Senator Brownback. How many people have pulled together?
    Ms. Walden. I think there were eight in the original group, 
but I think he has even managed to get other people to 
contribute during the year for other things. But I have also 
contributed. I mean there are other costs involved, so I have 
had to put in what I could, but it has been quite an 
experience. But I would not have been able to do it without 
them. I mean, it would have just been too much for me.
    Senator Brownback. And I take it not that many parents are 
as fortunate as you?
    Ms. Walden. Absolutely not.
    Senator Brownback Most parents don't have somebody that 
just comes in and drops this in front of them.
    Ms. Walden. No, most parents aren't as lucky as I am. I 
have had just an incredibly blessed life, for some reason. But 
most of the parents that I have worked with through the years--
and I work a lot in the community with people that need a 
mentor. So I have been kind of a mentor to a lot of young 
mothers who don't have those choices. I mean, they don't have 
anybody that can step in because most of the people in their 
immediate neighborhood are struggling along with them. So it is 
not a choice that they have.
    There are always people that will come in and help in the 
community, like me, even though I can't help them financially. 
I help them in other ways, but I can direct them. One of the 
big arguments as I have talked about this particular issue is 
that low-income mothers won't be able to get the other part of 
the money that will be required because this won't pay for full 
tuition.
    And one of the things that I try to do myself with some 
other women is to try to talk to them about maybe talking to 
churches or going to their extended families, and they are very 
conscientious about the creative ways of raising the additional 
funds. So I think that is what we have a responsibility to do 
for them.
    Senator Brownback. Ms. Walden, you mentioned that you work 
with a number of single mothers in helping them out and that is 
your way of helping. What percentage, would you estimate, would 
like to have the option of being able to send their children to 
a private school?
    Ms. Walden. I think in the group of women that I work with, 
a hundred percent of them would like to get their children out 
of the Southeast schools that they are in because this group 
that I work with, their kids are in schools in Southeast 
Washington and they are really disturbed.
    Senator Brownback. Why do they want their children out of 
those public schools?
    Ms. Walden. They see better opportunities for them. They 
see things that they didn't get. A lot of these young mothers 
have not finished school themselves. They dropped out of school 
themselves because the conditions in their schools were bad, 
and now they are seeing their children doing the same thing and 
they want to have a better life for them. They don't want them 
to live the life they are living.
    Senator Brownback. And they see this as the ticket out, a 
changed lifestyle for their children?
    Ms. Walden. Absolutely. The environment in which these kids 
go to school, and a good example--one mother called me not too 
long ago and said that she was just really disturbed that an 
administrator at her school had just decided she didn't like 
her child and it was making it really difficult. And we 
reported it and nobody helped.
    Now, I would have gone and probably removed the kid from 
the school if that were a continuing problem, but where is she 
going to take her kid? Her child has to stay in that school and 
we have to work through their problem. So what she has decided 
to do is be there everyday to protect her child. Those are 
horrible conditions to try to educate a child, and the child 
knows why her mother is there.
    So I think what happens is they see themselves pushed 
against the wall. They don't have--there is nothing they can 
say, there is nothing they can do except be there, and then the 
child is really not going to get a quality education in that 
kind of environment, whether the parents are there or not.
    So, yes, these parents think that to get a better life for 
their child means getting them out of schools that are not 
meeting their kids' needs and that are not doing what they are 
supposed to be doing, and D.C. schools are not. I mean, 
personally, I tried to stick with D.C. schools. I tried to stay 
with them because I am a product of public education and my 
parents were public school teachers.
    But I started seeing it get just horrible for William, for 
my son, and there was absolutely no way I was going to allow 
him to stay in that kind of environment and it didn't matter 
what I had to do, and my other choice was to send him away. 
That was my only choice.
    Senator Brownback. Let me put some statistics behind what 
you are sensing from the people that you advise and counsel 
with. Seventy-eight percent of the fourth grade students in the 
District of Columbia public schools are below basic reading 
achievement levels--78 percent. Eleven percent of the students 
in the D.C. public schools have avoided going to school for 
safety reasons--11 percent. Eleven percent of the students in 
the D.C. public schools report being threatened or injured with 
a weapon during the past year--11 percent threatened or injured 
with a weapon during the last year. I think the people you are 
working with have good cause.
    Ms. Walden. Well, actually, I think it is even higher than 
that, I mean, and it is not just Southeast. I live in Northeast 
and he was going to a school in Northwest, and I came home and 
he always talked to me about kids having weapons in school.
    Just to show you how interesting our whole situation is, 
the other night we had a parent meeting at the private school 
where William is at and parents were complaining about things 
that were occurring at the school, stuff the kids were doing. 
They were getting in trouble writing on the walls or whatever. 
And we were really quiet. William kind of looked at me and I 
kind of looked at him and we didn't say much, and they went on. 
There were 130 parents at this meeting and they went on and on 
and on about all the things that they needed to do to change 
this, and they were going to have these parent groups that came 
up to the meeting.
    So when we got ready to leave and William and I left to go 
home, we were talking about it on the way home and said, ``You 
know, ma, if they had been where I was, they would not be 
complaining. This is minor stuff compared to what we have been 
through.'' And we smiled and kind of laughed about it, but it 
was so good to finally have him in a situation where it is 
something in the past and it is not something we were 
experiencing right now. So I mean it just made an incredible 
difference in our lives.
    And William was involved in a lot of violence. I mean, he 
had a lot of problems. We smile and laugh now because he is a 
great kid and he is doing great, but he put me through a lot, 
and put himself through a lot, a lot of really damaging things.
    Senator Brownback. What swung it around for him? I mean, 
you describe a child that has really been, it looked like, 
heading the wrong way fast.
    Ms. Walden. Well, I think he had some basic things that 
were there; they just got lost somewhere. I think putting him 
in an environment where people really cared--and these are 
things he said to me. Teachers listen to him. Class sizes are 
not so large that he feels lost. He is kind of shy anyway and 
he doesn't feel lost anymore.
    The first of day school, he told me--he came home and I 
said, how did it go? And he said the halls were so quiet it was 
incredible. He said it was kind of scary. It was just that 
quiet. And I think he is a child that needed to feel like he 
was a part of something good, and in public school I think he 
was just getting lost. It was just too many things going on.
    He also felt--and William is really smart. Academically, he 
has really excelled at this school this year. And I said, 
``Well, why weren't you doing that before?'' And he said to 
me--and this is a story people have heard before, but it was 
actually said to me. He said at this school where he was before 
that he felt like if he acted too smart that he would be 
teased, because he saw other kids get teased and abused and 
beat up and all kinds of things because they were the A 
students.
    So he decided in his 14-year-old mind last year that he was 
going to be a part of the cool kids and he was just not going 
to act smart. And, unfortunately, the cool kids in these 
schools were kids who got in really bad trouble. But he felt 
like he just couldn't excel; he couldn't do anything academic. 
And now he feels safe, I think. I think he feels like he can--I 
have great stories that I could probably entertain you with all 
day, but we went up to his parent-teacher conference the other 
night and I have always dreaded parent-teacher conferences 
because teachers always told me that William was the worst kid 
in the class and he stayed in trouble and could not do 
something with him.
    Well, at this parent-teacher conference every teacher 
talked about he was a good--what a good boy he was and he was 
doing well in their classes. But he got a B in chemistry and so 
I wasn't going to go visit that teacher because I figured I 
would visit the teachers where he seemed to--they needed to 
talk to me a little bit more.
    And he dragged me to this chemistry class. He said, ``No. 
My teacher told me to bring you.'' And this lady sat down and 
she talked 10 minutes, with parents lined up outside the door, 
about what a fine student he was and how he has really tried 
and she has never had a child in her class, and on and on and 
on. I left there floating because I never ever thought this 
would happen with us, with William.
    I was telling a friend earlier, it used to be the joke in 
my family that I better live a long time because nobody would 
take William; he was just too bad. So it has been dramatic. I 
mean, my child has--our situation has probably been much more 
dramatic than many others, but it did happen.
    Senator Brownback. Well, I hope people can watch your 
testimony because your eyes tell a lot more than your words do 
and you can see the glow in them of where you have been and 
where you are and where you see your son going.
    Ms. Walden. He is going to be an engineer.
    Senator Brownback. Good. We have some good Kansas schools 
that teach engineering very nicely.
    Ms. Walden. Absolutely.
    Senator Brownback. Mr. Walker-Bey, you talked about a 
daughter that was 12 years old, didn't know her alphabet, now 
does and is starting to read. Why didn't she know her alphabet 
at age 12? What was the problem here, or was it 14, even? What 
was the age of your daughter?
    Mr. Walker-Bey. Twelve; she is 12.
    Senator Brownback. Twelve, OK.
    Mr. Walker-Bey. I don't understand myself, I really don't, 
but I would have to say, as I stated earlier, I have to go back 
to the situation in the public schools. As I stated, she knows 
the alphabet now. She has begun to read a little. And I don't 
want to give her teacher something that she doesn't deserve, so 
I would just have to say that it is the school.
    As I stated earlier, I guess so much is happening in the 
schools that oftentimes teachers don't have the time to 
concentrate and to give their full attention to the students. 
But I know that she could not read, nor did she know her 
alphabet until I had gotten totally involved with her 
educational process.
    You know, Senator, the lady--what is your name?
    Ms. Walden. Virginia Walden.
    Mr. Walker-Bey. Yes, Ms. Walden, she had mentioned 
something about how certain support groups had helped 
facilitate her son's growth. And when she said that, I had to 
reflect to an organization that I am a member of, and I want to 
get back to my daughter and my son, and the name of this 
organization is EFFORTS, and the acronym for EFFORTS is 
Employment for Former Offenders Receiving Treatment Services.
    And it just doesn't embrace those individuals who have not 
been incarcerated or who have not had some type of bad 
experience or experiences in life, but it embraces everyone. As 
a matter of fact, the director of the program, Ms. Rachel 
Morrison--I am not going to say it was because of her that I am 
here today, but I know that I didn't have any money and she 
came and she picked me up and she brought me here.
    And she is the director of that program and my being a 
member, I started to take my children there, and what I have 
discovered in both my daughter and son in the last couple of 
months is that they have talent. And this talent has been 
facilitated by way of getting involved in a drama group that is 
an extension of the concept of the program, EFFORTS. So, now, I 
have sat and watched my son and daughter discover their 
talents. He is a natural-born actor.
    And we are in the process of going to an institution, Oak 
Hill. Are you familiar with the institution, Senator? It is a 
juvenile facility, Oak Hill, Maryland.
    Senator Brownback. Yes.
    Mr. Walker-Bey. And we are in the process of going there on 
Saturday to perform a play, and my son and daughter, they are a 
part of that play. So I mention that because it was by way of 
that program that I have begun to notice that my daughter and 
son have talent.
    It was because--and I want to stay on the program, but I 
just want to show how when important, caring people get 
involved in your life, how it can make a difference, and I have 
seen how the program has made a difference in my children's 
lives. The program I have seen has brought mothers and children 
together because they have these discussion sessions. The 
program has turned out a lot of children who would otherwise be 
disruptive in school and made a difference in their lives.
    So I guess when there is that caring, genuine caring, and 
involvement in a person's life, whether he is an adult or a 
child, it can make a difference.
    Senator Brownback. It can make a big difference.
    Mr. Walker-Bey. It can make a big difference. So back to 
your question, why do I think that my daughter could not read 
at the age of 12 years old----
    Senator Brownback. Just speak right into that mike. People 
are having trouble hearing you.
    Mr. Walker-Bey. OK. To answer your question as to why I 
don't think my daughter could read at the age of 12 years old, 
obviously the person or persons, the teacher or teachers, have 
not been able to get totally, for whatever reason--I would wish 
to attribute it to the situations in the school--they have not 
been able to get totally involved with my children in terms of 
their education, and that can make a difference, a negative 
difference.
    Senator Brownback. Well, thank you for that testimony, and 
I want to answer one of your questions that you posed about 
taking Members around to the public schools and have them see 
for their own eyes the same situation which I have gone into 
the D.C. public schools and looked at. The metal detectors are 
set more tightly to get into the schools than they are to get 
into the Nation's Capitol. The high school that I went to, I 
saw people struggling, working heroically, and nonetheless a 
system that has produced bad results within it, which leads me 
to think of systemic or systematic approaches that one ought to 
do to change it, and this is one of those.
    In another sense, too, I don't think Members have to go 
look at the public schools. I think they already have, in 
determining what to do with their own children. They looked at 
the public schools and decided ``I am not going here.'' They 
looked off of the objective test results. They looked at the 
issues of violence in these public schools and they said, ``I 
don't care how much I believe in this sort of system, even 
though it is producing these sorts of problems. I am not going 
to put my child there,'' and then they went somewhere else.
    And then they would still deny the choice for you to be 
able to do that, and that is what I find so abhorrent and that 
is why I continue to plead with the President, sign this bill 
so that these children can have the same choices that Chelsea 
did. And maybe it isn't to the same type of school, but they 
can have that sort of choice because you know every parent in 
the world desires that for their child, the very best that they 
can possibly have. Yet, if they are relegated to a system that 
produces poor results and they don't have a way out of it, what 
then are they supposed to do?
    You had a guardian angel that came in, Ms. Walden, 
thankfully, in your situation.
    Ms. Walden. Absolutely.
    Senator Brownback. How many of those do we have around? Not 
enough. We could use a few more. This is simply to try to 
provide that choice.
    So I want to thank the panel for joining us today. This is 
an important time period because the bill does sit on the 
President's desk, or will soon be there, and the President will 
have the option then of joining a majority of both the House 
and the Senate in signing this bill, a $7 million measure that 
would provide low-income parents with the option of being able 
to send their children to a different school other than the 
D.C. public school system. I plead with the President to do 
just that. It is the right think to do, as you noted, Mr. 
Walker-Bey. It is the right thing to do, and how could you look 
in the eyes of these children and relegate them to any other 
type of choice?
    Thank you both. Thank you for being involved parents, as 
well, and we appreciate it greatly.
    The meeting is adjourned.
    [Whereupon, at 10:29 a.m., the Subcommittee was adjourned.]
      
      

                                   <all>
</pre></body></html>
